No. 20-791

 

 

IN THE

Supreme Court of the Anited States

EGLISE BAPTISTE BETHANIE
DE Ft. LAUDERDALE, INC., et al.,

Petitioners,
Vv.

SEMINOLE TRIBE OF FLORIDA, et al.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

BRIEF FOR THE SEMINOLE TRIBE OF
FLORIDA IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,209 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 2, 2021.

Colin Caséy Hogan
Wilson-Epes Printing Co., Inc.
